<html>
<title> - [H.A.S.C. No. 114-86] NAVAL STRIKE FIGHTERS: ISSUES AND CONCERNS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 114-86]

               NAVAL STRIKE FIGHTERS: ISSUES AND CONCERNS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 4, 2016

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-914                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California                    Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, 
  Subcommittee on Tactical Air and Land Forces...................     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Davis, LtGen Jon M., USMC, Deputy Commandant of the Marine Corps 
  for Aviation (DC(A)), U.S. Marine Corps; RADM Michael C. 
  Manazir, USN, Director, Air Warfare Division (N98), U.S. Navy; 
  and RADM Michael T. Moran, USN, Program Executive Officer, 
  Tactical Aircraft, U.S. Navy...................................     3

                                APPENDIX

Prepared Statements:

    Davis, LtGen Jon M., joint with RADM Michael C. Manazir and 
      RADM Michael T. Moran......................................    33
    Turner, Hon. Michael R.......................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Jones....................................................    55
    
    
    
    
    
    
    
    
    
    
    
    
    
               NAVAL STRIKE FIGHTERS: ISSUES AND CONCERNS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                        Washington, DC, Thursday, February 4, 2016.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order.
    The subcommittee today meets to receive testimony on issues 
and concerns regarding the strike fighter fleets for the 
Department of the Navy [DON].
    I would like to welcome our distinguished panel of 
witnesses: Lieutenant General Jon M. Davis, Deputy Commandant 
of the Marine Corps for Aviation; Rear Admiral Michael C. 
Manazir----
    Admiral Manazir. Manazir.
    Mr. Turner [continuing]. Manazir--sorry, director of--
Manazir, Director of the Air Force division for the U.S. Navy; 
and Rear Admiral Michael T. Moran, Program Executive Officer 
for Tactical Aircraft.
    Thank you for your service and for your attendance today.
    We are here today to talk about the Department's strike 
fighter programs, but I want to take a moment to pause and 
remember the tragedy of January 14th in Hawaii, when we lost 12 
Marines and 2 CH-53Es. We must do everything in our power to 
ensure the readiness and safety of our young men and women in 
uniform.
    At the outset, I would also like to note that the 
Department of Defense [DOD] will not release its fiscal year 
2017 budget until Tuesday. Accordingly, I expect that our 
witnesses will not be able to discuss the details of the 
upcoming budget request.
    However, the members do have questions about the budget, 
which are to be taken for the record. I would ask that our 
witnesses respond promptly after the budget is submitted to 
Congress.
    We have several issues to cover today, but in my opening 
remarks I want to highlight two committee concerns: the Navy 
strike fighter shortfall and the issue of physiological 
episodes in the F/A-18 fleet.
    In hearings last year for the fiscal year 2016 budget 
request, Admiral Greenert, then the Chief of Navy Operations, 
described a requirement to procure an additional 3 squadrons of 
F/A-18E/Fs, or about 35 aircraft. Additionally, the Marine 
Corps' unfunded requirements list included six F-35B aircraft 
to replace six AV-8B aircraft destroyed at Bastion Airfield in 
Afghanistan when the enemy broke through Marine defenses in 
September 2012.
    This committee and the Congress heard that call. For fiscal 
year 2016 the committee added 12 F/A-18E/F aircraft and 6 F-35B 
aircraft.
    The National Defense Authorization Act [NDAA] signed into 
law in November of last year reflects those increases. The 
Consolidated Omnibus Appropriations Act for fiscal year 2016 
included these authorized increases and added two more F-35C 
aircraft for the Navy.
    We know that that helped to alleviate some of the Navy's 
strike fighter shortfall, and the fifth-generation fighter 
increases will improve the Navy's warfighting capabilities. We 
look forward to hearing more from our witnesses on how these 
increases helped and how much more we need to do.
    Since 2009, the Department of the Navy has noticed a rise 
in hazard reports, known as HAZREPs, regarding the 
physiological episodes in the Navy's F/A-18 and EA-18G fleets. 
According to the Navy, physiological episodes occur when a 
pilot experiences a loss in performance related to insufficient 
oxygen, depressurization, or other factors present during the 
flight.
    We have been informed that the Navy has organized a 
physiological episode team to investigate and determine the 
causes of these physiological episodes in aviators. As symptoms 
related to depressurization, tissue hypoxia, and contaminant 
intoxication overlap, discerning a root cause is a complex 
process.
    We understand that determining the root cause, or causes, 
of physiological episodes in F/A-18 aircraft is a work in 
progress. We look forward to learning more today about the 
Navy--what the Navy is doing to address this and it is an 
important issue. Very many Members of Congress are very 
concerned about these issues.
    Before we begin, I would like to turn to my good friend and 
colleague from Massachusetts, Ms. Niki Tsongas, for any 
comments that she may want to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 31.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
  MASSACHUSETTS, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you, to our witnesses. Welcome. It is good to 
have you before us.
    We here in Congress have no greater responsibility than 
making sure that the men and women we send into harm's way are 
provided with the best and safest equipment available. Today's 
hearing on naval strike fighters is an example of the kind of 
oversight Congress must do to make sure that happens, and I 
thank the chairman for focusing on this important topic.
    There are many issues to discuss today, including whether 
or not we have enough strike fighters, the state of their 
material readiness, and the potential need for funding 
adjustments once we see the President's budget request [PB] 
next week.
    However, while the number of aircraft we have is an 
important issue, the performance and quality of those aircraft 
is just as important. As such, I would like to focus my 
concerns today on one particular topic highlighted in today's 
testimony and the hearing materials provided to members.
    This issue is the troubled performance of the on-board 
oxygen generation system of the F-18 fleet. Specifically, I am 
concerned about the high rate of hypoxia, which is caused by a 
lack of oxygen, and other physiological events apparently being 
experienced by the crew members of F-18 aircraft over the past 
5 years.
    The members of this committee remember well the impact that 
on-board oxygen generation system failures had some years ago 
on the F-22 fleet, both in terms of the risk it posed to 
service members and to the impact it had on the grounding of 
the entire F-22 fleet. With this in mind, it caused me great 
concern to learn of the higher than expected rate of 
physiological events for F-18 pilots over the past several 
years, going back to at least 2010, according to the Navy.
    While it must be pointed out that there has, thankfully, 
not yet been a confirmed loss of life or aircraft attributed to 
such events, the increasing rate at which these incidents are 
occurring and their potential for catastrophic incidents is not 
lost on any of us. To me, this boils down to keeping our naval 
aviators and naval flight officers safe.
    Just as we place a high priority on body armor for our 
ground troops, making sure the oxygen system works as it should 
in a $15 million-a-plane fighter aircraft should be a top 
priority. While there are many important parts of a complex 
fighter aircraft, I am sure our witnesses would agree that the 
basic life support system for the crew is one of the most 
important of all.
    So I look forward to hearing more today about this issue as 
well as others that you are here to talk about, what the Navy 
is doing to correct it, and what the outlook for the future is. 
In addition, I hope to hear what Congress might be able to do 
to help solve the problem.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Thank you.
    I understand that only General Davis will be giving us an 
opening statement.
    General Davis.

STATEMENT OF LTGEN JON M. DAVIS, USMC, DEPUTY COMMANDANT OF THE 
  MARINE CORPS FOR AVIATION (DC(A)), U.S. MARINE CORPS; RADM 
MICHAEL C. MANAZIR, USN, DIRECTOR, AIR WARFARE DIVISION (N98), 
 U.S. NAVY; AND RADM MICHAEL T. MORAN, USN, PROGRAM EXECUTIVE 
              OFFICER TACTICAL AIRCRAFT, U.S. NAVY

    General Davis. Mr. Chairman, Congresswoman Tsongas, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the issues 
and concerns associated with the Department's strike fighter 
programs. Additionally, today we will be addressing fiscal year 
2016.
    The programs of the 2017 Presidential budget submission has 
not been released, so we won't be talking about that today, 
sir.
    Joining me today is the Navy's Director of Air Warfare, 
Rear Admiral Mike Manazir; and the Program Executive Officer 
for Tactical Aircraft, Rear Admiral Mike Moran. I am honored to 
be here with them today.
    As you are well aware, the Department faces an aviation 
readiness challenge, which includes reduced strike fighter 
capacity available to support the tactical aviation force's 
operational and training requirements. While your invitation 
requested focus on these DON strike fighter challenges, we note 
the readiness of--is a preeminent concern for all of naval 
aviation, and that extends beyond the strike fighter inventory 
alone.
    The Department's legacy F-18 and AV-8B readiness challenge 
is attributed to a series of events beginning with the delays 
in JSF [Joint Strike Fighter] procurement, which translated to 
an unplanned maintenance to extend the service lives of legacy 
aircraft beyond their designed life. Additionally, combatant 
commander-driven operations and Navy and Marine Corps training 
and readiness requirements are driving increased strike fighter 
utilization rate, thereby adding to the current depot 
maintenance workload.
    In an effort to meet strike fighter inventory requirements, 
our depots are executing a service life extension program. 
However, the depots' throughput of planned service life 
extension work has been complicated by the discovery of 
unexpected corrosion-induced work, leading to longer repair 
times for the inducted airframes. The extremely high demand for 
our assets for such a prolonged period of time is challenging 
our ability to maintain and sustain them appropriately.
    While the Navy and Marine Corps share the Department's F-18 
A through D fleet, the resulting readiness challenges 
associated with increasing F-18 at or reporting is vastly 
different. The Navy prioritizes and continues to meet deployed 
readiness requirements set forth in the Optimized Fleet 
Response Plan.
    Achieving these standards, however, has come at the expense 
of force training for the operational squadrons at the early 
stages of the fleet readiness training plan and the fleet 
replacement squadrons responsible for the air crews' initial 
and refresher training--basically training our seed corn. This 
poses risk to our future readiness, impacts our surge capacity, 
and places additional stress on the operational hardware 
through overutilization.
    As the Nation's force in readiness, the Marine Corps does 
not achieve readiness requirements on a tiered structure. 
Rather, Marine aviation is expected to sustain a nominal 
readiness requirement to fight tonight.
    However, Marine aviation is not meeting that readiness 
requirement, due in large part to the limitations in 
operational capacity--not enough airplanes on the line.
    In the strike fighter communities we are unable to generate 
the minimum flight time required to operate the thresholds to 
readiness--required readiness. The challenge is twofold.
    In our F-18 A to D fleet we are simply not producing enough 
aircraft at our depots to meet our readiness requirements. In 
our Harrier fleet, the primary limiting factor is parts 
availability--supply.
    Together, these challenges manifested in an overall force 
readiness degradation that can only be overcome with improved 
equipment availability through legacies in sustainment and in 
new aircraft transitions. We are addressing the problems 
through an--on a number fronts, including initiatives to 
improve our depot throughput to return more aircraft to fleet--
and you will hear more about that today, I am sure; 
synchronizing our readiness enabler accounts; and exploring 
means to reduce utilization.
    The sustainment of our legacy fleet is a priority to meet 
our combatant commander-driven operations in the near term. We 
have also recognized the adverse effect overutilization has on 
our hardware and on our--and have implemented service life 
management protocols into the F-18 E and F fleet earlier in its 
life cycle.
    Finally, we are successfully integrating new F-18 and F-35 
aircraft into the fleet to address the usage attrition, a 
portion of our challenge that can only be overcome through 
aircraft procurement.
    We thank Congress for recognizing our concerns in fiscal 
year 2016 and helping like you did--that, in fact, is going to 
be really, really helpful--and authorizing and approving--
appropriating additional funding for aviation depot production 
and the additional strike fighter aircraft to address our 
military capacity challenge.
    We appreciate the committee's continuing support and 
oversight on these important issues and look forward to the 
questions as we explore all facets of this complex situation.
    Thank you. I look forward to your questions.
    [The joint prepared statement of General Davis, Admiral 
Manazir, and Admiral Moran can be found in the Appendix on page 
33.]
    Mr. Turner. Thank you, General.
    In your prepared testimony, General Davis, you note that 
naval aviation readiness is in a precarious position and that 
Marines are flying an average 58 percent of the required flight 
time necessary to be ready for the Nation's call. Can you talk 
about the factors that have led to this decreased state of 
readiness?
    And also, Admiral Manazir, can you please tell us--you 
state that the Navy is also in a precarious position--are they 
getting as few as 58 percent of required flying hours, like the 
Marine Corps?
    And this would be a great opportunity for both of you to 
give a commercial on why this budget year is incredibly 
important, because that is what we are doing right now.
    General Davis. Absolutely, sir.
    I can start if you would like, Mike.
    Admiral Manazir. Go ahead.
    General Davis. We are. I ran the numbers. Again, I get 
almost a weekly update on where we are, and we tracked a 30-60-
90 flight time for our pilots.
    So if you look at the inventory in our flight lines, it is 
really a readiness factory. And our training and readiness 
manual for the Marine Corps, we are not on a tiered readiness 
profile; we operate what they call T2.0, which means about 70 
percent of our fleet is ready to go, and go meet our Nation's 
bidding.
    We have got a reduced or smaller number of squadrons that 
meet our operational commitments, but--so we don't do a tiered 
readiness. We stay at a--our target is to stay at a constant 
level of readiness.
    The training and readiness manual for an F-18 pilot calls 
for about 15.8 to 16 hours a month per pilot to fly. They are 
flying, on average the last 365 days, 10.6 hours a month, so 
significantly lower than the requirement.
    The Harrier fleet is supposed to fly about 15.4 hours a 
month. They are flying about 10.3 to 10.4 hours per month, so 
vastly lower than the requirement.
    So they are not achieving a T2.0 readiness level; they are 
achieving about a T2.7 level.
    We are meeting our operational requirements, and what we 
are doing is we are paying with that middle bench. Those forces 
that would deploy quickly when the Nation called for a 
contingency, they are getting less airplanes to train with. 
While we are meeting our operational commitments, we are doing 
that just in time.
    I would say that is a result of a couple things: One, 
reduced budgets for operation and maintenance accounts; delay 
of the new aircraft procurement, or lowered ramp for airplay of 
the Marine Corps' case, like the F-35. The sequestration 
impacted us, and also I think sequestration really impacted on 
the depot capability out there to repair our aircraft.
    So in the Marine Corps on the TACAIR [tactical air] side--
that is F-18--today the F-18 fleet is operating right around 50 
percent of its capacity in the United States Marine Corps.
    If I was to add the F-18s and the Harriers that I am 
supposed to have on the line on any given day, it is about 238 
airplanes. Of those 238 I am supposed to have on the line to 
meet that T2.0 readiness requirement, about 178 are what they 
call ``in reporting,'' that they are there, they are actually 
on the flight line, okay?
    Of those 178 I can fly, today, this morning we could get 
airborne about 110 of those airplanes. There are just not 
enough up airplanes on the line, sir, all right?
    So it is a combination of how we sustain our aircraft; in 
the Harriers' case, not enough parts for the Harriers. We have 
done an independent registry review to figure a way to 
basically get out of that, and I briefed the committee on that.
    And last year your help in 2016, laying supplies and money 
in to go help us recover that platform will help us recover the 
Harrier in about 2016-2017 back to where we need to be on our 
flight line readiness.
    The F-18 is more of a depot problem, and it is a little bit 
longer problem. But talking with Admiral Manazir and working 
very closely with the Navy, we believe we will be back to 12 
aircraft per squadron somewhere about FY [fiscal year] 2017 or 
early 2018.
    A shout out, from my part, to Admiral Paul Grosklags and 
Admiral L.J. Sewell. I think that they are doing a great job 
down there with the resources we have given them to change both 
the readiness equation in NAVAIR [Naval Air Systems Command] 
and what they are doing in our depots.
    So bottom line, I would say that we don't have enough 
assets on the line to do the job, enough up aircraft to train 
our Marines. We will make our Nation's call and readiness, but 
I think there is risk out there in the larger fight with our 
bench not having enough aircraft to train and fly with on a 
daily basis.
    Admiral Manazir. Mr. Chairman, thank you for the question.
    We have similar readiness statistics as the Marine Corps in 
the percentages. As General Davis noted, the Marine Corps does 
not tier their readiness; they stay at a level readiness to be 
a force in readiness all the time, 24/365.
    The Navy has a tiered readiness system, where basically in 
the early phases of the workups prior to going on deployment we 
have a lesser readiness requirement, just as the squadrons get 
ready to go in the basic training phase. And then we move to an 
intermediate phase where we resource them a little bit higher. 
And then we fully resource them to go on deployment.
    We also are meeting our deployed requirements. We are 
meeting our integrated and advanced training prior to 
deployment. Where we are taking the readiness hit is down in 
the lower maintenance phase or basic phase, when you want to 
just get an aviator time to fly.
    We have found that even in this tiered readiness level, if 
you picture sort of a bell curve in training, so you train up, 
you go on deployment at the highest level, and then you walk 
back down again, that bell curve has gotten steeper. So we have 
taken the readiness out of the front end and the back end, 
where you sustain the readiness.
    That means that a significant part of our force that is 
shore-based, in training and not deployed yet, is experiencing 
a lot less flight time than they are required to spend. And so 
it gets to the same kind of percentage chances that General 
Davis talked about.
    We have had to shut down squadrons if they don't have 
enough time in the air. We create a floor of flying hours at 11 
hours a month--we call that our tactical hard deck--for a pilot 
in the United States Navy, and we say, ``If you can't get 11 
hours per month you are not proficient and current enough to 
remain safe in the airplane.'' And so we try to get that 11 
hours per month.
    The proximate causes of this are the underfunding of what 
we call the enabler accounts. Your committee, Congress has been 
wonderful in PB16 of giving us the readiness funding and the 
increases in aircraft to help with the problem.
    But we have had about a decade of critical underfunding of 
what we call the enabler accounts. So if the flying hour count 
is the 1A1A account, that is the money it takes to fly the 
airplane, the hours that it takes. Underpinning that 1A1A 
account is the depot account, 1A5A; sustainment accounts like 
the 1A3A and the 1A4N. I am doing alphabet soup here.
    The problem is that we typically focus on one kind of 
account. We go fly the hours and we underfund the spares; we 
underfund the depot; we underfund the parts that go into that 
flying.
    And we have done that in the service over the last 10 
years, and that stuff is coming to fruition.
    Sequestration hit us, as General Davis said, where the 
workforce in the aviation depot was laid off. We couldn't bring 
that work to bear on the depot workload, and those depot 
airplanes backed up. So it is a combination of factors.
    Again, the PB16 budget moves the needle in the right 
direction. The aircraft that you added--and as you noted in 
your statement, Mr. Chairman, Admiral Jon Greenert last year 
said, ``I need two to three squadrons to fix the hole that I 
have to replace the airplanes we have been using over the 
years.''
    So far we haven't got the two to three squadrons yet, 
although we are moving towards that, thank you very much. And 
so we still need about another 16 or so Super Hornets to fill 
the hole here in the midyears of the teens.
    But we are experiencing the same kind of readiness hits 
that General Davis is and we are having to take those hits back 
at home and so keep the deployed operations moving.
    Mr. Turner. General Davis, the Marine Corps has the 
majority of the Navy's legacy fleet of F/A-18s in its 
inventory, which are affected by the problems with the 
environmental control system, causing physiological episodes in 
aviators. General, I was a mayor before I came to Congress, and 
of course I had police force and a fire department.
    Our fire department had problems with their breathing 
apparatus, and they--we never could figure out what was wrong 
with it. It would randomly go out when people were in, you 
know, the most unsafe conditions, obviously, running into 
burning buildings to save other people.
    In the end, even though we couldn't find what the problem 
was, we had an issue of confidence with our firefighters, and 
it affected their performance and their safety. How is this 
affecting the issue of the confidence of our pilots?
    General Davis. I think that, first off--and I have flown 
both the AV-8 and an F-18, so one of the things I learned 
flying the F-18--I am very confident in the OBOGS [On-Board 
Oxygen Generation Systems] system in the AV-8 but, you know, I 
was--we always watched the--on the climb-out the schedule to 
make sure that we are good to go from an oxygen perspective.
    I will tell you that I am very confident my Navy team here 
to go fix the OBOGS problem, make sure we got a--I got a good 
system for my Marines. The Marines love flying the F-18. It is 
a workhorse for us.
    We don't worry that much about the OBOGS right now, and 
again, we do have--we know that the Navy is working that for 
us, so--and I actually have--my youngest son is a Marine F-18 
pilot that flies an OBOGS F-18C right now and just got back 
from deployment. I think he is more worried about his--the 
number of airplanes on the line right now for him to go train 
than he is the OBOGS.
    But I do defer to the Navy exactly what we are doing on 
that, sir, but that we are confident the Navy is getting their 
arms around the OBOGS problem.
    Mr. Turner. And the environmental control system?
    General Davis. That as well, sir.
    Mr. Turner. Admiral Moran, sustainment of the F-35: Now 
that the F-35B has entered the Department of the Navy's 
inventory and its first operational squadron last year, and the 
Navy is expected to declare IOC [initial operational capacity] 
with its F-35C in the late 2018 or early 2019, what challenges 
do you see for sustainment of these aircraft and how is the 
Naval Air Systems Command preparing for these challenges?
    Admiral Moran. Thanks, Mr. Chairman.
    First I will tell you that the F-35 is not in my portfolio, 
so the tactical aircraft for the Navy--F-18, AV-8B. F-35 is 
still run by the Joint Program Office [JPO], General Bogdan.
    So I will tell you we are full participants in the JPO when 
we talk about sustainment, integration to the carrier deck and 
how we work those issues. But I would not comment here today on 
the long-term sustainment of F-35 in the Navy. I would really 
defer that to the Joint Program Office or the F-35 Program 
Office.
    Admiral Manazir.
    Mr. Turner. Would you like to comment on the physiological 
episodes in the F/A-18, please?
    Admiral Moran. Oh, absolutely. Yes, sir.
    You know, ma'am, you mentioned this is a top priority. I 
will tell you, it is absolutely a top priority in the United 
States Navy and the Marine Corps. You know, we have what we 
call the Naval Aviation Enterprise, that we meet monthly at the 
three-star level.
    So General Davis, Admiral Manazir are leaders on that team. 
Admiral Shoemaker, who is the commander of Naval Air Forces, 
leads that with Vice Admiral Grosklags at NAVAIR Systems 
Command.
    And so that is a top priority that is discussed on a 
monthly basis at the three-star level. So every incident that 
occurs, I will tell you, comes to my desk if not daily, 
certainly weekly.
    And we have a very robust physical episode team, as you 
mentioned, and pretty much over 120 people at this point that 
are looking at every aspect of our environmental control system 
[ECS], of our OBOGS system, and really the human interface to 
that system to make sure we are uncovering anything that can 
continue to mitigate that risk.
    I will tell you, since 2009, when they started raising or 
increasing in numbers, we put a lot of things in place. The ECS 
system really is a decompression sickness piece, so it is a 
pressurization in the airplane.
    So we have made probably close to 18 or 19 changes in that 
system to date--pressure valves, control valves, sensors--as we 
have updated that airplane and we learn more. So continuously 
looking, from a material standpoint piece.
    On the OBOGS side, we are looking at replacing some of 
those components, too.
    Sir, and your mention on the breathing apparatus for the 
firemen, it is the same thing. So, you know, when we get the 
gas--or the air through the engines and we filter it to get the 
nitrogen out and then other contaminants out, it is really a 
filtration system that we are looking at.
    So we replaced that filtration system. We field it in about 
219 jets today; we are going to get it in all the jets. That 
really has done a great job of getting rid of the carbon 
monoxide and improving the breathing gas for the pilots.
    And then the oxygen monitor system, we have got a new 
system in place now that has been in test--funded in 2017 to 
start going on the airplanes when it completes tests here later 
this year. So incrementally, each of those systems replacing 
that.
    But I will also tell you, from leadership's direction, the 
awareness of the problem is just been made keenly aware across 
all of our sites. So we have a roadshow that is the NAVAIR 
System Command engineers, our fleet folks, our safety center 
folks, our aviation medicine folks, go out to all of the sites 
and really increase the awareness for our pilots of what the--
what it--what we are dealing with.
    So we have increased the training as part of that. So what 
we did every 4 years to do hypoxia training we are now doing 
every year. We have got a new, more realistic breathing 
apparatus training environment that we do every 2 years now 
that really gives the pilots a real kind of sense of what that 
hypoxia feeling is going to be, because it is really that 
awareness piece.
    And then the training and air crew procedures, all being 
implemented. So what I would tell you what we do now and I can 
see that on a daily basis.
    When an incident pops, you know, I would tell you, before 
the pilots would go on their oxygen, their auxiliary oxygen for 
100 percent for a period of time and then get out of it. The 
new procedure is, hey, bleed that system out, recover the 
airplane, and return to base.
    And I will tell you, that is--in every incident that I have 
seen in my time here so far the pilots are executing those new 
emergency procedures very effectively.
    So I think where it is a multipronged approach that we are 
hitting this. It is absolutely a focus for us and we continue 
to make gains.
    And I will tell you that the things we are doing now is 
really trying to understand the contamination piece. I mean, 
are there any things getting in the gas, you know, that the 
pilots are breathing that we are not aware of?
    So I think we have really gone after the carbon monoxide 
and have really good test results. And now we are doing a study 
to see what else is out there that may be contaminating, you 
know, the gas that the pilots are breathing.
    Right now we don't have a way to measure that in the 
airplane, and so we are looking at ways right now, testing a 
couple things down at Pax River that we can put into their 
emergency gear to not interfere, but measure the gas so that if 
there is something out there that we are not seeing yet, 
hopefully we will learn that and build that into the filtration 
system.
    Mr. Turner. Thank you, Admiral.
    Congresswoman Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And I appreciate, Admiral Moran, your testimony in trying 
to address some of the issues. But I do want to continue to 
have a conversation around it because it is, I think, an issue 
that despite all your efforts and investments in policies and 
training and everything else, the numbers still don't go down.
    I mean, in fact, they have, I think over the last--the rate 
of events has been consistently in the range of 20 to 30 events 
per 100,000 flying hours for the past 3 years. So even as you 
have made these investments, you are not seeing a lot of 
progress.
    So, Admiral Manazir, I wanted to ask, what would be a 
normal or expected rate of such events for the fleet? And what 
would you look to see as these efforts are being made? Is there 
such a rate? Have you created something that you are looking to 
achieve?
    Admiral Manazir. Ma'am, that is a good question. Let me 
describe the physiological event just a little bit and put it 
into terms that might be a little more understandable.
    First and foremost, I have complete confidence in the 
system--the training and the backup systems that we have on the 
Hornet and the Super Hornet. We designed them for redundancy.
    A physiological event occurs when a pilot feels dizzy, 
feels confused, feels a little strange in the airplane. Admiral 
Moran mentioned the trainer that we have now.
    I have been flying Navy airplanes since 1982 on oxygen. I 
commanded an F-14 squadron that had OBOGS back in 1998. I have 
two cruises with that system and I have four cruises with the 
Super Hornet--deployed Super Hornet.
    I have never experienced a hypoxic event outside of 
training. I haven't personally.
    But what we do with the trainer now is you get into a 
simulated cockpit on the ground, you put an oxygen mask on, and 
you do simulated training. The system is set up so you can fly 
a simulator. And they gradually reduce your oxygen content and 
they train us to recognize the symptoms.
    It is not a instant ``you are gone.'' It is a confusion 
factor.
    And so when a pilot feels that, he is--he deploys his 
emergency oxygen, which is 100 percent oxygen bottle like we 
used to do. Then he reaches down underneath his left thigh, he 
pulls a handle, and he goes onto emergency oxygen.
    That backup system immediately gives him emergency oxygen 
and the symptoms subside enough for him to land the airplane. 
That system has worked 100 percent every time and I am 
confident it still will.
    We haven't developed a rate per 100,000 flying hours 
because even one event like that, catastrophic, can--you can 
lose the airplane. I don't think we will, but we are trying to 
drive these events down through all of the actions that Rear 
Admiral Moran talked about, and driving those rates down.
    I will comment to you that the rates started to climb in 
2010. That is the year that we told everybody, ``Okay, we think 
there is a problem here at Navy leadership.''
    So instead of just coming back and going, ``Yes, I was kind 
of dizzy. Everything is fine. It passed. It passed,'' we said I 
want you to report every single event. So I think the 
phenomenon that you are seeing between 2010 and now is an 
increase in reporting.
    They are very real events and they do key us into where we 
go for causal factors. But the chairman talked about the 
firefighting breathing apparatus. It is like chasing a ghost; 
we can't figure out because the monitoring devices that do this 
are not on the airplane to figure out whether there was a small 
oxygen content more than we needed, less than we needed, or a 
carbon monoxide event, or poison in the gas, something that 
came off of bearings, breathing toxic air.
    We haven't been able to figure that out, so we have been 
chasing ghosts. I mean, we are replacing and creating new parts 
and chasing those things.
    So, ma'am, I think we are just trying to get that rate down 
as far as possible, while still understanding causal factors. 
But if we had a confidence problem in the airplane we would 
ground the fleet.
    And we don't have that problem. That is why you don't see 
the commander of Naval--NAVAIR, Vice Admiral Paul Grosklags, 
going to that extreme measure, because we have confidence in 
the system. We are just trying to figure out the cause of these 
episodes.
    Ms. Tsongas. And I appreciate the efforts that you all are 
making. It is obviously a real issue and one that--in which the 
safety of the pilots is, you know, paramount in everybody's 
mind.
    But even as you are making all the--so I appreciate that 
the reporting is better so you have a better understanding of 
the scope of the problem. That is always the first step we have 
to take.
    But that has also been in concert with all these other 
efforts that you are making to try to address and solve the 
problem and fix it. And despite that, there seems to be no 
progress made because the reported numbers remain the same.
    So I am curious, in addition, as we are talking about the 
budget going forward, what the cost of this has been. And is it 
a funding issue? Is it a technological--some issue that people 
just somehow haven't been able to identify? Could you address 
that?
    Admiral Moran. Yes, ma'am.
    You know, I don't see it as a funding issue. We have gotten 
all the resources we have asked for on the technical side to go 
ahead and investigate the causal factors, so I don't see it as 
a research question.
    The new filter material that we are replacing in the 
current systems has been funded and supported, so we are 
putting those in the airplanes as we speak. Like I said, only 
219 systems to date, but, you know, they are looking to do 
about 40 a month to get that into all the jets.
    The new oxygen monitor system is resourced. It is going 
through the final stages of its testing, as I said, in Pax 
River. That is funded in fiscal year 2017 they have to be 
installed in the airplanes.
    The changes we have made to date on the ECS system have all 
been funded and supported across the board.
    So from an acquisition standpoint, providing systems to the 
fleet, I have not faced any resource challenges or issues to 
get that support across the enterprise.
    Ms. Tsongas. Have you looked at installing an automatic 
backup system, and would there be a cost to that?
    Admiral Moran. Well, as Admiral Manazir talked, we do have 
the automatic oxygen--the oxygen system as a backup. What we 
are looking at is can we increase the amount of that oxygen 
system that we carry in the airplane so we can give it a longer 
duration and that emergency piece. So we are actively today 
looking at can we increase.
    Right now, depending on the altitude and really the 
condition of the pilot, that lasts anywhere between 20 minutes 
and maybe down to 5 minutes. So can we extend that, you know, 
by two- to fourfold to give that pilot a--you know, that real 
backup system for an extended period of time? We are looking at 
that, as well.
    Ms. Tsongas. Would there be a cost issue associated with 
that?
    Admiral Moran. It would be an expense, yes, ma'am.
    Ms. Tsongas. Thank you. I yield back, Mr. Chairman.
    Mr. Turner. Representative Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    We talked a little bit about some of the concerns in 
aviation readiness, General, and I want to talk about the 
backlogs in the depots.
    During the summer every year I kind of go back for a 
reunion at Camp Lejeune. I was in the Swansboro area.
    By the way, every August it rains down there every time I 
come and it comes down in buckets, but that is another story. 
Things haven't changed much.
    But I went out to Cherry Point and I visited the depot 
there, and I was very, very impressed with the briefs and 
everything like that. But I am concerned about the room that 
they are going to have; I am concerned about whether there is 
enough actual space there, and this is for not only the East 
Coast depot but the--and I haven't visited the West Coast 
depot--whether you have the physical space in the plant.
    They did say there, you know, I started to ask them about 
space, do we have to acquire land or what have you. They said 
no, they already own the land, which is amazing, and they can 
do it.
    So is this a concern about backups, about whether you are 
going to be able to take care of the F-35s? And do you have the 
readiness right now in the depots to handle this increase in 
terms of manpower, parts, and room?
    General Davis. Yes. Congressman, thank you very much for 
that question. I will probably ask Admiral Moran to help me a 
little bit in the end of that.
    But I would say we have got a pretty--we have got a good 
military construction plan to make sure that we have got the 
facilities to take care of our platforms--I do worry, it is not 
for this committee, but the V-22 as that comes into its rework.
    Will we have the room to go work those airplanes in? We are 
working them really hard and we are putting a lot of hours on 
those airplanes. They are going to come into the depot.
    As we work the depot, the number--probably one of the 
number one things we need out there besides--and every airplane 
is a little bit different, so they aren't working on F-18s up 
there; we are working on Harriers, CH-53s, V-22s. In that case 
here there is some corrosion, a little bit in the V-22, but 
mainly, our main limiting factor out there with that particular 
depot is spare parts.
    You know, the parts--they would call, like if you are a 
racecar driver you are going to come in and get a complete 
turnover new parts you would have a list of equipment out there 
that you would put on that airplane. Same thing really with our 
F-18s, getting what they need as they come in, the--kind of the 
most common parts that come off that airplane need to get 
replaced.
    That is the number one thing for us right now with both 
Harrier, CH-53, both in the depots and in the flight line, is 
basically getting our turnaround time to where it needs to be. 
The 53 deals with about 25 percent--cable supply, as does the 
Harrier.
    And frankly, it is probably--you asked, Congressman Chair, 
you asked about the sustainment on F-35. That is my number one 
concern with F-35 is underfunding its spares accounts, both for 
the depot and for the flight line's units.
    Mr. Cook. General, I want to switch gears a little bit, F-
35----
    General Davis. Sir.
    Mr. Cook [continuing]. And Expeditionary Air Field, 
Twentynine Palms. Years ago when the Harrier first came out 
used to have a sweeper to clear Lyman Road at Camp Lejeune.
    General Davis. Right.
    Mr. Cook. I used to always laugh when I saw that because of 
the fog and all that stuff.
    General Davis. Right.
    Mr. Cook. Is that going to be a problem or are we going to 
have to go away completely from an expeditionary air field?
    General Davis. No.
    Mr. Cook. Because when that wind blows at Twentynine Palms 
or in the desert or all that stuff there, this is a very, very 
expensive aircraft, and if you can reassure me and tell me 
everything is going to be fine.
    General Davis. We just actually did a deployment up to 
Twentynine Palms----
    Mr. Cook. I know----
    General Davis. And bottom line is they--it was the 
typical--it was November, December wind patterns out there and 
it wasn't necessarily--they lost some sorties for weather 
mainly due to the crosswind limitations on--for the air--for 
affording that direct crosswind. And a lot of time above about 
25, 30 knots you don't fly because if a pilot ejects out of an 
airplane they get pulled across the desert floor and get--could 
get hurt that way.
    So Twentynine Palms is a training environment, so it is not 
operational. So we limit to the wind limits out there to make 
sure that we don't hurt somebody.
    We actually dinged--on that particular deployment we 
actually had blade damage to two engines, right? But when we 
looked at it it wasn't blade damage that required the engine to 
be removed. So we do have that. In every jet aircraft out there 
little rocks, little things get pulled up.
    But in this case here the F-35 proved to be very robust. It 
had some blade damage; it was blendered out and it wasn't a 
problem.
    So what we are doing, though, in that--Major General Mike 
Rocco, a great commander down there at Miramar--they are very 
conservative and I think that is sensible. That airplane wasn't 
supposed to go to Twentynine Palms until this spring. We pushed 
it up there early because, one, we wanted to stress, you know, 
how that airplane would operate logistically, how it was going 
to operate in support of the grunts out there at Twentynine 
Palms. And frankly, that airplane belongs in every climate 
place--not just on a main base, but on an amphibious carrier 
and also, too, in our expeditionary bases.
    So we got a lot of the data points we wanted to out of 
that. We will always have to be FOD [foreign object damage]-
conscious when we go to expeditionary bases. But part of that 
is how we operate; part of that is what we have to sweep up to 
go in there.
    Mr. Cook. Thank you very much. I yield back.
    Mr. Turner. Representative Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Admiral Manazir, over the past couple of years the Navy has 
cut F-35Cs in the future years defense planning budget. With 
the threat growing in numbers and capability in the 2025 
timeframe and beyond, what is the Navy doing to recover these 
aircraft to ensure our carrier strike groups and carrier air 
wings remain relevant and are able to counter the growing 
threats?
    Admiral Manazir. Thank you very much for your question, Mr. 
Johnson.
    The Navy's procurement of F-35C aircraft were cut for 
fiscal reasons, in line with other Navy priorities.
    And thank you, to the committee, for the support of extra 
F-35Cs in the PB16 budget, and that goes a long way towards 
capability.
    You will find the Navy buying additional F-35Cs in greater 
numbers as we go forward. The Navy, operating off of our flight 
decks, operates integrated capability, whether Super Hornets, 
EA-18G Growlers, E-2D Hawkeyes, or helicopters, to create a 
capability that can overmatch the threat.
    The F-35C is a critical part of that netted capability. Its 
stealth characteristics, its data fusion capability, and its 
very advanced identification of the threat capability allow us 
to extend the reach of the carrier strike group.
    So I think you will find, sir, that as we push forward in 
these future budget cycles that our prioritization of the F-35C 
for warfighting capability will increase.
    Mr. Johnson. Thank you.
    General Davis.
    General Davis. Again, adding the six Harriers last year--or 
the six F-35Bs to replace our combat losses is incredibly 
important and I want to say thank you very much, on behalf of 
the entire Marine Corps, for doing that. We lost a great 
squadron commander and six airplanes destroyed and two damaged 
at Bastion.
    Those airplanes are now going to be--fill up a VMFA-122. By 
getting those airplanes it will allow us to move an F-18 
squadron--an older F-18 squadron out and move the new airplane 
in.
    I just spent the last 2 days down at Fort Worth with our F-
35 pilots and took--General Neller went down there with us. I 
will tell you that we have a war-winning airplane.
    So with the Marine Corps we heard Congressman Cook ask 
about going to expeditionary bases. We will go to our 
amphibious ships; we will go to expeditionary bases. And that 
airplane is going to change the way we fight.
    We took all the senior Marine leaders on down to go watch 
this for 2 days, and we had the young guys that are flying the 
airplane. They are flying a completely different way than 
everything we have ever flown before in a very positive way. 
Real combat capability, real combat multiplier.
    I think it is going to make the Marine Corps the force in 
readiness to be exponentially more qualified and more capable 
to meet the threats that loom at our Nation's bow. We have got 
exactly the right system out there.
    Thank you for the support on that.
    Bottom line, what I do worry about is that it comes in--not 
only the airplanes, and we are going into a full rate of 
production pretty close here in 18--is the sustainment support 
that goes along with that. If we get this great new airplane 
and my readiness rates are as good as they should be because I 
am taking parts off good airplanes because I don't have the 
parts out there to put them on another airplane, and to make 
the readiness goals I need to, I think that would be a real 
tragedy.
    It is a fantastic airplane. With the young aviators that 
were out there, the only thing they can complain about with 
this airplane--the only thing--was spare parts. Not enough 
spare parts.
    Thank you, sir.
    Mr. Johnson. Thank you.
    General Davis, the F-35 is the only fifth-generation 
aircraft in production today, and I would like for you to 
highlight for us what the F-35 fifth-generation capabilities 
bring to the fight.
    General Davis. What we saw yesterday in a couple 
scenarios--and I want to--be careful--we have got to watch the 
classified nature of some of this stuff, the capabilities we 
have out there--we did close air support in a contested 
environment through overcast weather.
    We took a division of airplanes and basically we had a 
division of F-35Bs launching off an amphibious carrier and it 
struck a target that would have taken--to do--to take the 
target--and I was the CO [commanding officer] of our weapons 
school MAWTS [Marine Aviation Weapons and Tactics Squadron] 
One. To do that strike with the conventional assets the Marine 
Corps owns today would have taken 12 to 14 airplanes. We did it 
with four.
    We dealt with a very high-end sand threat. We dealt with 
weather doing close air support through the clouds. I am not 
sure we would have got in with the conventional fourth-
generation airplanes we fly today. It would have been a very 
difficult problem.
    With fifth-generation, four airplanes, and the way they 
flew those airplanes, looking at basically talking to the 
forward air controller through the clouds with their synthetic 
aperture radar, with picture-quality optics out there through 
the cloud, 1,000-foot overcast, we would not be able to do that 
today. But a high degree of fidelity.
    I think it is going to change the way we do close air 
support, and change the way we support our Marines on the 
ground.
    The second scenario was a four ship going against a very--a 
strike mission defended by very high-end surface-to-air 
missiles and a very high-end adversary aircraft--division of 
aircraft. They took care of all the four adversaries they were 
up against, took care of the sand threat, and killed the target 
with no attrition.
    So I think it is going to change the way we do business. It 
has certainly changed the way that the Department of the Navy 
fights the fight because we will fight our F-35Bs alongside the 
carrier wing out there, being an integrated fight out there, I 
think getting better value for the taxpayers' money and much 
better capability than we have had today.
    Like the V-22 has changed the Marine Corps and the naval 
services in a positive way how we project power from the sea, 
the F-35B is going to allow us to project power from a sea base 
and our expeditionary bases ashore in a very positive way for 
our Nation. I was very excited what I saw yesterday not from 
what I know but really from what those young guys were doing in 
the airplane with the technology that you provided for them.
    Thanks very much.
    Mr. Johnson. Thank you.
    And I yield back.
    Mr. Turner. General Davis, thank you for elaborating on the 
F-35 sustainment question with--on Admiral Moran's answer.
    General--excuse me, Representative Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    My question is for General Manazir, and it is encouraging 
to hear, obviously, the Navy has taken the, you know, the 
tactical aviation, at least the shortfall, very seriously, and 
you are obviously intending to acquire more F/A-18s. And you 
have testified before this committee before and you have said 
that the mainstay of the, you know, the strike fighter force 
is--F-18s is going to be through 2035, I think was the 
timeframe that was used. And we are now two or three squadrons 
short, given the shortfall.
    But I would like you to address, you know, the importance 
of keeping the Super Hornet and the Growler lines operational, 
which is something that worries me, because you can't just 
start these lines up, you know, out of nowhere. And if we are 
going to keep these airplanes flying and maintained and 
everything else, we have to keep those, you know, those lines 
moving. But can you address that?
    Admiral Manazir. Yes, sir. Thank you very much for the 
question.
    As I testified last year, the Navy is about two to three 
squadrons short of Super Hornet. The fundamental reason for 
that is we have been overutilizing our aircraft over the last--
mostly--close to a decade without replacing them in the numbers 
that we need to. And that overutilization was done in support 
of our ground wars in two countries. That attrition of 35 to 
35--35 to 39 aircraft a year was highlighted by Admiral 
Greenert last year when he said 2 to 3 squadrons to fill that 
hole.
    The Super Hornet is a vastly capable airplane that will 
complement the F-35C going forward through the decade of the 
2020s into the 2030s, and as our statement notes, the 
predominance in numbers until the mid-2030s is going to be in 
Super Hornet as we continue to flow the F-35Cs into the air 
wing going through the decade of the 2020s. The complementary 
capability of those Super Hornets, along with the F-35C, gives 
us our striking power, our reach off the aircraft carrier.
    It is vital to maintain a viable line at St. Louis for the 
Super Hornet for the near term here, in order to get those 
numbers into the air wings that we need to, and then to extend 
the force out through the 2030s until we get to a predominance 
of F-35C. And so acquiring those airplanes--and thank you very 
much to the subcommittee and the overall Congress for getting 
those extra Super Hornets to replace the numbers that we have 
flown.
    Also, the extra Super Hornets over the next several years 
covers the slide in initial operational capability F-35C to the 
right. We have had previous IOCs of the F-35C planned for 
several years earlier. This slide in F-35C capability to the 3F 
software block of the airplane is such that we have had to 
continue to buy Super Hornets to keep the capability in our air 
wings high. So it is vital to maintain that line open, sir.
    Mr. Graves. We can actually go beyond that, too, and that 
is one of the things I worry about throughout all branches of 
the military is backfilling our used-up equipment. We have got 
a real problem with that and it worries me. And I'm obviously 
more interested in aviation than I am other areas, but thank 
you for your comments very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Representative Graham.
    Ms. Graham. Thank you, Mr. Chairman.
    Thank you all very much for being here.
    We went on a trip, this subcommittee, to Eglin, and one of 
the concerns that was raised was about the maintenance system 
for the F-35, acronym ALIS [Autonomic Logistics Information 
System]. And it seemed like there were a lot of challenges that 
were being faced, and we have already talked about some of the 
maintenance issues that allow our jets to be ready to fly when 
we need them.
    Can you give an update on where we are with ALIS? Thank 
you.
    General Davis. Yes. Eglin is the--where VFA-101 is, I 
think. The Marines have moved out. Our squadrons are now up in 
Beaufort; and Yuma, Arizona; and soon to be in Iwakuni, Japan. 
And we also have systems up--aircraft up at Edwards with our 
operational test unit.
    We are achieving the kind of success rates we need to right 
now with ALIS. We have one workaround that we have found, we 
worked on with our operational readiness inspection. And our 
IOC declaration was the one thing that you still got to do is 
you have got to use a laptop computer to download the engine 
numbers you need to after the flight.
    But for the most part, a lot of the ALIS is understanding 
the system and also the training for your enlisted maintainers. 
So we have some really good maintainers that know ALIS really 
well. No system is without its flaws, but we are not finding 
the debilitating problems with ALIS out there.
    And the big thing we are finding is our turnaround times 
were inside 2 hours. If I have the parts then we can make the 
turnaround, but if I don't have the parts we are not making 
that.
    So I think that--and we also took an expeditionary 
deployable ALIS up to Twentynine Palms. It was one of the 
things we talked about out there, as well.
    So we got your main base; we are putting them on the Navy 
ship, the L-class ships and the carriers. And also we had one 
we wanted to take up so we could be light and austere.
    Some of the initial reports were that it had a lot of 
bandwidth limitations out there. I think part of that, too, is 
how we train our Marines. We are using some of those same pipes 
for our communications out there, and I think probably limiting 
the number of things that we download outside of the work stuff 
we need to do is going to allow us to get the ALIS information 
we need in a timely manner.
    So we are not losing sorties for ALIS right now, that I am 
being told about. And our turnaround time is actually quite 
good. Not without problems, but not impossibility out there. So 
thank you.
    Ms. Graham. Anyone else have a comment about ALIS, not 
ALIS? Sorry. I mispronounced it----
    General Davis. You might have said it right; I might have 
said it wrong. I don't know.
    Ms. Graham [continuing]. So many acronyms, y'all. Very----
    General Davis. Right. There are too many.
    Ms. Graham. Another question, just this might seem like 
common sense, but I, you know, I hear that you all are saying 
that the--our pilots are not getting enough training time. What 
do you all think that does for our vulnerability from a 
security standpoint?
    Admiral Manazir. Ma'am, thanks for the question.
    We both testified earlier, as--right after the opening 
statements, that we are losing training time in the phases 
leading up to deployment. What that affects is our surge force. 
And so if we keep our deployed readiness up high, as we do in 
both services, and we are on the front lines with those forces, 
if something were to happen and we were required to surge 
forces from the United States, those forces are not as 
adequately trained now and we would have to put a whole bunch 
of resources in there to fly--to upgrade the flying of those 
forces to be able to surge behind.
    That goes across--for the Navy that goes across our 
carriers, our air wings, our parts, or the full resourcing 
piece. So the combined effect of the under-resourcing of 
readiness accounts, spares, all the accounts across the board, 
is such that our surge force is not going to be recovered for a 
little while here.
    We are targeting specific areas in that surge resourcing to 
be able to get to a surge number by the end of this decade and 
get back up to where we expect to be for the backup, the 
reserve, the surge forces. That is where we see that impact.
    General Davis. Ma'am, for the United States Marine Corps, 
again, it is our deployment model. We are supposed to maintain 
a baseline readiness of this 70 percent, and the hours kind of 
what we pay for our flight hour dollars, I can't execute the 
flight hour dollars because I don't have the flying--up-flying 
machines to do the job.
    Again, every--is a little different. Your F-18--legacy F-
18, coming out of the depot; Harriers is the parts. But it 
extends throughout Marine aviation.
    So I will tell you that we have a very codified and good 
training system. It is 1,000 times better than when I came in 
as a young guy in 1982. But our pilots, men and women, are not 
getting enough looks at the ball. They are not getting enough 
flight time experience out there to be ready to be that across-
the-ROMO [range of military operations] force to the degree we 
need to.
    We train really hard. We are working incredibly hard to 
make our next-to-deploy unit go out the door ready to go, 
whether it is on a carrier, because we have got F-18s and soon-
to-be F-35Cs will go on Navy carriers. And our regular strike 
fighter is going out there for our unit deployment program to 
Japan, Special Purpose Marine Air-Ground Task Force in the 
Middle East, and then all of our new deployments--we are making 
those deployments just in time.
    And I look at the amount of risk, operational risk, and the 
wear and tear on the Marines and their families by doing it 
that way. There is no margin in my cupboards anymore. So any 
kind of help that you could give us in the sustainment 
accounts, any kind of help you can give us in recapitalizing 
our fleet--the old airplanes are great, but they don't stay up 
as long as they should.
    A new airplane, properly sustained, will give us that long 
life we need. A lot of the airplanes we're flying--you know, we 
brought the F-18 into the Marine Corps in 1981, the Harrier in 
1983. We have got an--we have extracted maximum value out of 
those platforms, and we will continue to do so until we turn 
them in.
    And we have done our readiness recovery models to make sure 
we do do that and we get the readiness numbers we need to both 
in F-18 and Harrier. But we do need to recapitalize and sustain 
that system as quickly as we can.
    I worry about the training base. I also worry about my 
pilots leaving the Marine Corps because they are not getting 
enough flight time. These are the best and brightest that our 
Nation has produced, and I--it is probably the Air Force and 
the Army, as well. Great young people, they joined to fight; 
they joined to be good at what they do.
    It is like a quarterback--you know, the--all the great 
quarterbacks want all the snaps. Our pilots want all the snaps.
    An F-18 pilot in the Marine Corps should get 16 hours of 
snaps a month and he is getting 10. You know, and they are not 
as good as they should be.
    Admiral Manazir. And I want to add just something for the 
committee. Our standard is very, very high for readiness. 
General Davis talked about the standard that changed between 
when we both came in in 1982 to right now. We match our 
readiness against that standard.
    Your Navy and Marine aviation can beat any foe anywhere in 
the world hands down without trying. We train to that standard, 
and that standard is what we're indexing to see if we are 
there.
    So our standard is very high. We want to achieve that 
standard without having to lower that bar, and that is why we 
tell you that we need more readiness dollars and resourcing and 
a focus on that standard to maintain our overmatch of any 
adversary in the world.
    Mr. Turner. Representative Duckworth.
    Ms. Graham. Thank you.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I would like to follow up on what my colleague from 
Louisiana, Mr. Graves, was touching on in terms of the 
shortfall of F-18s. Given all the different moving parts, 
basically, you know, in light of the current inventory of 
aircraft spare parts, crew, maintainers, do you have enough to 
support current demand--operational demand?
    General.
    General Davis. Yes, ma'am. On the F-18 I will probably try 
to answer for the Harrier, as well.
    We have the inventory of pilots we need. We are under-
resourced right now in F-18 pilots because for a small period 
there we took jets out of the training squadron to make 
operational commitments. We have stopped that, so our training 
base is sound. Now we are producing the number of F-18 pilots 
we need.
    But I am not getting them the looks at the ball, like we 
talked about. Same thing with the Harrier pilots.
    Our enlisted maintainers--those are the ones I focus on the 
most----
    Ms. Duckworth. Yes.
    General Davis [continuing]. My master wrench-turners. I 
will tell you that we talked about spare parts, we talked about 
depot, we talked about in-service repair. The fourth pillar of 
that, for sustaining a legacy or a new airplane, is the quality 
of the maintainer.
    We've got great Marines and sailors. We are focused now on 
how do we retain those very best Marines and sailors, and how 
do we make sure they have got the right promotion opportunities 
and training opportunities to do that stratified training, much 
like our aviators do.
    I commanded the weapons school, and in 1978 with the 
weapons school they said, ``We need to do this, to make better 
Marine aviators.'' At the same time they said, ``We need to 
make a schoolhouse like that for our maintainers, the patch-
wearers, the train-the-trainer.''
    We didn't do that. We are doing that now. And the first 
class is going out at the weapons school in conjunction with 
the WTI [Weapons and Tactics Instructor] class to train that E-
8 senior Marine to be the train-the-trainer to retain our very 
best and brightest.
    I think we don't have enough parts, we don't have enough 
airplanes. We have the human capital we need; we just need to 
give them the tools to be as good as they can be.
    Ms. Duckworth. And how does that affect your Reserve forces 
and the folks? You know, because as they leave Active Duty, the 
tempo, the quality of life, whatever it is, they decide to 
leave and you want to retain them in some way possible, so the 
Reserve forces is really a good place to keep those--to keep 
folks operational and in the game. How does the lack of parts, 
aircraft, school slots, all of that, help your--affect your 
Reserve forces?
    General Davis. Reserves are a critical component to our 
fleet. In fact, two of the TACAIR squadrons the Marine Corps 
will have are--we have two Reserve squadrons. One is cadred 
right now; I don't have enough airplanes.
    And VMFA-112 has less than half the airplanes it is 
supposed to have. So it impacts the amount of flight time those 
pilots can get; it detracts the desire to go out front, leave 
from the Active Duty force to go to the Reserves. And frankly, 
we are looking--we are not getting enough looks at the ball so 
the normal experience level you are looking for a reservist to 
go there, a lot of these guys don't have it as much as they 
needed to.
    Ms. Duckworth. Right.
    General Davis. Lieutenant General Rex McMillian and I have 
worked in this very closely. Bottom line is, as go the Active 
fleet goes the Reserves. So if we are hurting in the Active 
force we are going to be hurting in the Reserve. We are 
rebuilding the Reserves the same time we are rebuilding the 
Active fleet.
    Ms. Duckworth. So as the shortfall in F-18s, for example, 
across the service is happening, is--are you showing the same 
percentage of shortfall in the Reserves and Active fleet, or is 
it coming more--you are talking about you have a whole squadron 
that is not flying right now in the Reserves.
    General Davis. We cadred that squadron getting ready to 
stand up the F-35.
    Ms. Duckworth. Okay.
    General Davis. But VMFA-112--and we did a kind of a force 
reduction to deal with the systems we have right now have got 
19 squadrons of--1 F-35 squadron, 1 Reserve F-18 squadron, 6 
Harrier squadrons, and 11 F-18 squadrons right now in my 
inventory, and those are all legacy F-18s, plus the 2 training 
squadrons that go along with that.
    We will have two Reserve squadrons at end game. They will 
be F-35 squadrons, one at Beaufort and one at Miramar--or one 
at Cherry Point and one at Miramar. So building them up is 
critically important to us.
    And again, I think the Reserves is our buffer, right, and 
they are also part of our Active force. So making them healthy, 
making them as good as they can be is critically important to 
the future of the Marine Corps.
    We have got to fix the Reserves the same time we are fixing 
the Active fleet while making--right now making our operational 
commitments, and doing that as well as we can. In fact, our 
Reserve squadron is at Beaufort this week participating in the 
Marine Division Tactics Course, which is basically training our 
division of air-to-air pilots to go be as good as they can be, 
and they are out there in force with the airplanes they have, 
totally integrated with the Active Duty Component, being 
assessed and evaluated like the young captains are at Beaufort. 
And generally they do very, very well.
    But we need to get them more inventory and more parts so 
they can do their job well.
    Ms. Duckworth. Admiral, did you want to add anything?
    Admiral Manazir. Ma'am, for the United States Navy a 
similar type of thing. We have a--our full requirement of 
pilots, both Active and Reserve. We have our full requirement 
of maintenance personnel, both Active and Reserve.
    Where we suffer is the jets. As I described, we fully 
resource deployment and advanced training, and then we are 
unable, because of jet availability, to fully resource the 
basic phases.
    That also extends to the Reserves. So we are unable to 
fully resource the Reserves, so of their 10 jets--we have 2 
Reserve squadrons. One is a blue backup that would--will 
continue to be trained to go on deployment in case we can't 
send an Active squadron, and the other one is primarily an 
adversary squadron. Both do adversary duties for us, fighting--
playing like they are opposing forces.
    The availability of jets is a problem in the Reserves and 
the lower-level phases of our pre-deployment training. The 
proximate causes of that are parts, and the depot throughput 
that we have already talked about. And the proximate cause of 
the depot throughput, from a personnel standpoint, is artisans 
and engineers that we have had to hire since sequestration to 
make the depot flow continue.
    So our near-term readiness problem is the depot throughput. 
We continue to get better. We are 44 percent better this year 
than last year--or 2015 over 2014. We continue to get better 
and push those F-18Cs out to Navy and Marine Corps squadrons so 
that we can resource them properly with hardware and properly 
train the pilots.
    But the specific answer, ma'am, for Active and Reserve for 
the Navy is we have all the people that we need. It is the jets 
that we need to do--continue the training.
    Ms. Duckworth. I feel strongly that this Congress has--and 
previous Congresses has seriously done you a disservice by 
asking you to live up to an operational tempo, but not 
providing you the resources that you need. You don't have to 
respond to that. That is a political statement, and----
    Mr. Turner. Your time is up. Just let me say I agree. And 
certainly that is----
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Turner [continuing]. It is the budget battle time.
    Ms. Duckworth. Yes.
    Mr. Turner. This is the time for us all on this committee 
to make certain that our voices are heard to the other 
Members----
    Ms. Duckworth. Yes.
    Mr. Turner [continuing]. Of Congress so that hopefully we 
can get more resources, because this is not just, you know, 
inefficiency that is resulting in these falloffs; it is 
absolutely resources.
    And Congresswoman Tsongas gets our last question.
    Ms. Tsongas. Thank you, Mr. Chairman. I appreciate the 
opportunity to follow up again on some of the issues on the F-
18.
    First of all, I appreciate, Admiral Moran, your talking 
about the manual backup oxygen system, but I think we all would 
be concerned by the fact that you are asking a potentially 
incapacitated pilot to sort of help himself out of this. And it 
is my understanding that that would only give him 10 minutes, 
were he able to exercise it appropriately, and you would have 
no idea how far away he might be from the carrier or wherever 
he needs to get back to.
    So as you are looking at creating a budget, I think an 
automatic system is something that you might--I am sure you 
said you are thinking about it, but it seems to me that would 
give him much more time and he wouldn't have to activate it--or 
he or she would not have to activate it themselves.
    Another question, though: I know last year's NDAA 
authorized 12 additional F-18s, so how is the Navy--and this is 
for you, Admiral Manazir--how are you making sure that these 
new planes aren't delivered to the Navy without the same on-
board oxygen system problems that you are struggling with 
today?
    Admiral Manazir. So, ma'am, thank you very much. Those new 
Super Hornets are coming off the production line with the 
newest modifications that NAVAIR and Boeing are working 
through, and it is a combination Boeing-Navy team that is 
looking at this OBOGS system very, very hard.
    As soon as the technical work is done, the engineering 
work, to do these new parts--and Admiral Moran talked about 
them, the sieve and the regulator, the things that we think 
might be causing some of this--they get rolled into the 
production line. And then even when they get on the flight line 
we put those parts in there, too.
    So I am confident that the best technical minds in NAVAIR 
and also in Boeing are looking at this and we will roll those 
into the airplanes as they get to the fleet. And again, I have 
to tell you, ma'am, I have a lot of confidence in the airplane, 
having flown it.
    Ms. Tsongas. And how will you be assured that all these 
fixes are working?
    Admiral Manazir. We will continue to monitor; we will find 
better ways to monitor. We will continue to have pilots report. 
We will look at that decline in reports.
    We will turn over every rock, every technical rock, that we 
can to make sure that we are going after every causal factor.
    It is difficult to prove a negative. So if a pilot doesn't 
have a physiological event time after time after time--and 
again, ma'am, I have never had one ever and I have 3,500 hours 
in fighters.
    And so when somebody comes back and they say, ``Well, did 
we fix it? Nobody has had an event,'' and then all of a sudden 
we have an event, now we have to go back and see where the 
trend lines go.
    I have----
    Ms. Tsongas. Are you comfortable with the reports you are 
getting that you are being--getting an accurate sense of what 
the problem is out there?
    Admiral Manazir. Yes, ma'am. I think so. It is difficult 
because if a pilot is a little bit woozy, his recollection of 
the, you know, the exact leading up to, you know, what altitude 
were you, what were you doing, what did you--did you sense 
anything in the cockpit? So in our post-flight debriefs the 
flight surgeon talks to them as well, so we try to get as much 
fact as we can to then guide us in a scientific manner towards 
a cause.
    I am comfortable we will get there, but we are not going to 
stop.
    Ms. Tsongas. Thank you.
    I yield back. And thank you, Mr. Chairman.
    Admiral Moran. Yes, ma'am. I just want to----
    Ms. Tsongas. Oh, go ahead.
    Admiral Moran [continuing]. It is okay, ma'am.
    You know, when you say how are we going to know, I mean, 
all--part of this process we have developed some test 
procedures and test units to go check our pressurization 
systems and check our OBOGS systems that we didn't have 
currently. So when we accept the airplane off the line we will 
use those systems, as well, to validate the performance as best 
we can on the ground.
    We didn't have those before. We have them now, so we are 
leveraging them.
    And I will tell you, you know, it is really for us I think 
the kicker is can we really monitor, you know, what the gas the 
pilot is getting, is there any contamination in there, as I 
said earlier. So we do have some tools that we are employing 
now on our test squadrons to start--collect that data.
    As Admiral Manazir said, it is hard to get that data when 
an air crew lands, to really know what they were breathing at 
the time they had that event. So we are trying to put some 
things in the airplane.
    So we are, right now today in our test squadron, starting 
to employ those to see if they are of value, and so that we can 
start getting them out into the field. So we are looking at 
that continuing to evolve to make the awareness piece, you 
know, the critical factor so it is not a surprise. They can 
tell it is coming on or get indications from the system on the 
airplane that it is coming on.
    Ms. Tsongas. I guess a concern we would have that we would 
be paying for planes that still had this problem and put the 
pilots at risk. Thank you.
    Mr. Turner. With that, we will be adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            February 4, 2016

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 4, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
       
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 4, 2016

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. I understand that the FY17 PB may not include the $23M 
in FY17/18 funding for the F-35B Lift Fan facility at FRCE Cherry 
Point. This funding is critical in order to stand up the facility by 
2022. Can you speak to this?
    General Davis. This MILCON project to support F-35B depot-level 
work at FRC East Cherry Point is currently in the planning stage, but 
not funded in the Navy's FY2017 Presidential Budget. This MILCON 
Project is late to need; it should be complete no later than FY2022 in 
order to meet F-35 engine test requirements in support of the fleet, 
but cannot be stood up prior to FY2024 even with funding beginning in 
FY2018. The Joint Strike Fighter (JSF) Joint Program Office (JPO) 
planned procurement for the depot support equipment and tooling for the 
FRC-E is still on track for FOC in CY22.
    Mr. Jones. I understand one of the Marine Corps' top priorities 
would be to move funding left from FY19 to FY17 for a specialized F-35B 
hangar at Cherry Point. Could you speak to this critical need and if 
this is one of your top unfunded priorities?
    General Davis. Based on the planned F-35 squadron laydown schedule 
for MCAS Cherry Point, funding for a F-35 hangar at this location will 
be needed in the near future, but not in FY2017. However, we do have a 
specialized F-35 Hangar aboard MCAS Miramar in San Diego, Ca as one of 
our top unfunded priorities for this year.
    Mr. Jones. Sir, I understand that the Marine Corps desires to have 
a security fence constructed at MCAS, Cherry Point. Where does this 
fall on the Marine Corps unfunded priorities list? And in what fiscal 
year will it be funded?
    General Davis. The MCAS Cherry Point airfield security fence was 
funded in the FY2016 MILCON budget. We appreciate Congress adding this 
project to the program.

                                  [all]
</pre></body></html>
